                               Closeout for M97040012

   The complainant1 sent a letter to a program officer2 who forwarded it to OIG on
April 15, 1997. The complainant alleged that her colleagues and administrators
had interfered with her completion of her NSF-funded project,3 and one
administrator4 in particular had been harassing her. The administrator allegedly
arranged to have the complainant denied access to basic departmental facilities and
equipment necessary for her program. The complainant also alleged that she had
not be given any release time from her teaching duties as required by her NSF
grant. The complainant did not bring these problems to the attention of NSF at the
time they were allegedly happening.
   The complainant alleged that the administrator gave her a biased tenure review
and convinced the tenure committee that the complainant's contract not be
renewed. The committee accepted this recommendation. The complainant filed a
grievance, but the decision was upheld after two subsequent grievance hearings.
   OIG called the complainant to ask for support of the allegations. Due to a
pending agreement with the College, the complainant said she can no longer discuss
anything related to her grievances and suggested we contact the College for further
information. The College said that that information was confidential and would not
discuss it either.
   With no corroborating evidence and no forthcoming comments from either the
complainant or subject, OIG concluded that there was insufficient information to
pursue this allegation.
   This inquiry is closed and no further action will be taken on this case.



cc: Legal, AIG-Oversight, IG




   1 (Footnote redacted).
   2 (Footnote redacted).
   3 (Footnote redacted).
   4 (Footnote redacted).
